No. 20-701
IN THE

Supreme Court of the United States
JAMES CALVERT,
Petitioner,
v.
TEXAS,
Respondent.
CERTIFICATE OF SERVICE
I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 9th day of March 2021, caused a paper copy of the Reply Brief In
Support of Petition for a Writ of Certiorari to be delivered to the Court and an electronic
version of the document to be delivered to:
Jennifer Wren Morris
Texas Attorney General’s Office
300 W. 15th St.
Austin, TX 78701
(512) 936-2991
jennifer.morris@oag.texas.gov

/s/ David W. DeBruin
David W. DeBruin

